<html>
<title> - STATE DEPARTMENT'S ANTITERRORISM ASSISTANCE PROGRAM: THE GAO REVIEW</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


  STATE DEPARTMENT'S ANTITERRORISM ASSISTANCE PROGRAM: THE GAO REVIEW

=======================================================================

                                 HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    THE MIDDLE EAST AND NORTH AFRICA

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 4, 2017

                               __________

                           Serial No. 115-67

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]        


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______
                                 
                                 
                   U.S. GOVERNMENT PUBLISHING OFFICE                    
27-061PDF                  WASHINGTON : 2017                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="ef889f80af8c9a9c9b878a839fc18c8082c1">[email&#160;protected]</a>                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM R. KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID N. CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          AMI BERA, California
MO BROOKS, Alabama                   LOIS FRANKEL, Florida
PAUL COOK, California                TULSI GABBARD, Hawaii
SCOTT PERRY, Pennsylvania            JOAQUIN CASTRO, Texas
RON DeSANTIS, Florida                ROBIN L. KELLY, Illinois
MARK MEADOWS, North Carolina         BRENDAN F. BOYLE, Pennsylvania
TED S. YOHO, Florida                 DINA TITUS, Nevada
ADAM KINZINGER, Illinois             NORMA J. TORRES, California
LEE M. ZELDIN, New York              BRADLEY SCOTT SCHNEIDER, Illinois
DANIEL M. DONOVAN, Jr., New York     THOMAS R. SUOZZI, New York
F. JAMES SENSENBRENNER, Jr.,         ADRIANO ESPAILLAT, New York
    Wisconsin                        TED LIEU, California
ANN WAGNER, Missouri
BRIAN J. MAST, Florida
FRANCIS ROONEY, Florida
BRIAN K. FITZPATRICK, Pennsylvania
THOMAS A. GARRETT, Jr., Virginia

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

            Subcommittee on the Middle East and North Africa

                 ILEANA ROS-LEHTINEN, Florida, Chairman
STEVE CHABOT, Ohio                   THEODORE E. DEUTCH, Florida
DARRELL E. ISSA, California          GERALD E. CONNOLLY, Virginia
RON DeSANTIS, Florida                DAVID N. CICILLINE, Rhode Island
MARK MEADOWS, North Carolina         LOIS FRANKEL, Florida
PAUL COOK, California                BRENDAN F. BOYLE, Pennsylvania
ADAM KINZINGER, Illinois             TULSI GABBARD, Hawaii
LEE M. ZELDIN, New York              BRADLEY SCOTT SCHNEIDER, Illinois
DANIEL M. DONOVAN, Jr., New York     THOMAS R. SUOZZI, New York
ANN WAGNER, Missouri                 TED LIEU, California
BRIAN J. MAST, Florida
BRIAN K. FITZPATRICK, Pennsylvania
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                                WITNESS

Mr. Jason Bair, Acting Director, International Affairs and Trade, 
  U.S. Government Accountability Office..........................     4

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Mr. Jason Bair: Prepared statement...............................     7

                                APPENDIX

Hearing notice...................................................    30
Hearing minutes..................................................    31

 
  STATE DEPARTMENT'S ANTITERRORISM ASSISTANCE PROGRAM: THE GAO REVIEW

                              ----------                              


                       WEDNESDAY, OCTOBER 4, 2017

                     House of Representatives,    

           Subcommittee on the Middle East and North Africa,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 10:03 a.m., in 
room 2172 Rayburn House Office Building, Hon. Ileana Ros-
Lehtinen (chairman of the subcommittee) presiding.
    Ms. Ros-Lehtinen. The subcommittee will come to order.
    After recognizing myself and Ranking Member Deutch for 5 
minutes each, we will then recognize members for their opening 
statements for 1 minute. We will then hear from our witness. 
Thank you. Without objection, your prepared statement will be 
made a part of the record, and members may have 5 days to 
insert statements and questions for the record, subject to the 
length limitation in the rules.
    The Chair now recognizes herself for 5 minutes.
    The Antiterrorism Assistance Program, ATA, is one of the 
State Department's key tools in advancing some of our national 
security interests. Its primary mission is to enhance the 
capabilities of foreign partner nations with the goal of 
allowing them to better detect, deter, and prevent acts of 
terrorism.
    The program also gives our partners the tools, the skills, 
and training required to respond to acts of terror and to 
apprehend and prosecute the individuals responsible for these 
atrocious acts. According to the State Department, since the 
program was first implemented in 1983, 84,000 personnel from 
154 countries have been provided training, and the United 
States has provided bilateral ATA assistance to 34 partner 
nations.
    And while the majority of the ATA training occurs in host 
countries, or at regional facilities, we do perform a 
considerable amount of activities here in the U.S. This 
domestic training includes tactical training, which State has 
subcontracted out to just two facilities, one in Virginia and 
the other in North Carolina. And it was concerns that there may 
be lax security and oversight in at least one of these 
facilities that has led to the report that GAO is here to 
testify on today. So we welcome you.
    In late 2015, a South Florida reporter approached Ranking 
Member Deutch and me with some very concerning allegations 
regarding the security measures in the Virginia facility. There 
were also allegations from the local residents near the 
facility that some of the trainees were taking unauthorized 
departures from training.
    The reporter filmed herself driving into the facility, no 
questions asked. And, worst, she walked up to an explosives 
storage area undeterred and undetected. And while Mr. Deutch 
and I viewed this, we asked the GAO to conduct a review of the 
security measures at the domestic facilities and to document 
how the State Department selects, screens, and vets potential 
students, particularly those who come to the United States. And 
what we found as a result of this review is a mixed bag.
    Vetting procedures are in place and appear to have been 
followed and implemented. The domestic facilities had done 
proper documentation, and likely as a result of the reporting 
took voluntary measures to make their facilities more secure. 
But then we run into many of the same issues we have repeatedly 
heard from these GAO reports when it comes to program 
management at State.
    Most concerning is that we have incomplete or, even worse, 
inaccurate participant data. This is troubling for several 
reasons. First, we don't have complete or accurate data on the 
participants. We won't be able to follow up, then, on measures 
or measure the success of the program.
    And, second, if we have incomplete or inaccurate data, how 
can we be sure that these individuals were indeed fully and 
properly vetted? That issue becomes compounded when looking at 
another GAO finding, and that is that there have been 
unauthorized departures from the ATA program. Perhaps more 
troubling, while GAO was making inquiries of ATA officials, ATA 
identified a further 20 former participants that DHS had no 
indication who had departed from the United States. Wow.
    So who are these people? Where did they go? Why is there 
such a gap in communication between ATA and DHS? There was no 
formal process of actually following up and ensuring that these 
participants actually got on a plane and returned home. This 
might be a small number of participants. But given what we 
know, I suspect that if a deeper dive was done, we might find 
more unauthorized departures.
    It is frustrating for us. We know that there are important 
programs that are vital tools that our State Department can use 
to further our interests. But when we see time and again 
serious deficiency when it comes to program management and 
oversight, you have to start asking the hard questions.
    State Department has obligated nearly \3/4\ of $1 billion 
for the ATA program for fiscal years 2012 to 2016. But ATA has 
had difficulties even getting that money out the door. GAO 
reported that there was about $172 million in unobligated 
balances for the ATA program for those years; and, worse, $36 
million has expired. In some cases, when we do get that money 
out, we have no way of following up, as a recent audit by the 
State Inspector General's office reported.
    That audit finds that there was an absence of performance 
reporting in Pakistan that prevented ATA from measuring the 
effectiveness of that program because our people were not given 
the visas or the access to travel around the country as would 
be required for proper oversight. I would imagine that there 
will be more of that across the ATA program.
    So how do we begin to address the shortcomings so that we 
can ensure that this key program is as effective as it can be? 
And that is what we are here to discuss with GAO, and we look 
forward to hearing more from our witness.
    And with that, I am so pleased to turn to my good friend, 
the ranking member, Mr. Deutch of Florida.
    Mr. Deutch. Thank you, Madam Chairman, for convening 
today's hearing and for joining together to request that this 
GAO report be published to review the State Department's 
Antiterrorism Assistance Program, or ATA as it is known.
    I also want to thank our witness, Mr. Bair, for joining us 
today and for the work that you do every day to ensure proper 
government oversight.
    At a time when we are all concerned about the rise and 
spread of terrorism, I think we should be thankful for the 
important work of ATA. Since the program began in 1983, the 
State Department has worked to educate and train local law 
enforcement and security entities in over 150 countries across 
the globe.
    Building the capacity of partner nations to indigenously 
prevent terrorist attacks, and then respond to and investigate 
attacks when they happen, means fewer American forces need to 
be sent overseas. ATA has spent hundreds of millions of dollars 
training nearly 90,000 security forces in countries from 
Morocco to India.
    So the goal here today is to better understand that 
investment and determine how we can improve the program. The 
GAO report being discussed was initially requested because of 
some excellent reporting by a local Miami journalist who 
brought to the chair's attention, and to my attention, concerns 
with the security and implementation of the ATA program at a 
local training facility just a couple of hours from where we 
sit today.
    Thanks to her reporting, that facility in Virginia, which 
she found to have left gates unlocked and open, allowing her to 
walk up to unguarded explosive lockers, has since increased its 
security.
    She also raised concerns about international participants 
in the training program leaving the courses to stay in the 
U.S., and whether we are spending taxpayer dollars to train 
security forces to fight terrorism. As we spend those taxpayer 
dollars, I think it is fair to expect that they then use that 
training to go home to fight terrorism.
    This one example, though, raised much bigger questions 
about how the State Department is using the roughly $150 
million annually allocated for the ATA program. So we are here 
today not to criticize the important work of the State 
Department or the critical counterterrorism efforts of the ATA 
program, but rather to fulfill our legal and constitutional 
duty of program oversight to ensure that American taxpayers' 
investments are being used effectively and efficiently.
    The GAO is our trusted nonpartisan government watchdog who 
just completed a report analyzing this program. Unfortunately, 
but I would say predictably, the report finds some of the exact 
same problems that past reports have highlighted. The State 
Department struggles with management of these programs, 
including data collection and an alarming inability to even 
track participants in the program.
    This has made it difficult to, then, monitor and evaluate 
the effectiveness of the program. And if you can't evaluate how 
effective a program is, you can't determine how to fix it. A 
report from the State Department's Office of the Inspector 
General in May of this year found that the ATA program in 
Pakistan failed to implement the recommendations from the last 
2012 GAO report; namely, that there is still no effective 
monitoring and evaluation process. That is a problem.
    At the same time, I think it is important to highlight some 
of the good that was found in this report. ATA prides itself on 
training programs that emphasize the rule of law and respect 
for human rights, and this report showed that not to be an 
empty slogan. The report states that all participants studied 
in the program had gone through proper vetting, which prohibits 
the U.S. from providing assistance to any security forces 
implicated in any form of human rights abuses.
    Additionally, the State Department performs criminal and 
terrorism-related screening for all potential participants in 
the ATA programs, allaying some concerns of potential security 
risks. There is a lot embedded in this report, so I think we 
are all looking forward to you, Mr. Bair, helping unpack it for 
us. We hope that you will help us better understand the 
significance of what you found and offer specific 
recommendations for improving this important Antiterrorism 
Assistance Program. We look forward to your testimony, and I 
thank the chair. I yield.
    Ms. Ros-Lehtinen. Thank you so much to the ranking member. 
And seeing no other requests for opening statements, I am 
delighted to introduce our witness, Mr. Jason Bair, who serves 
as the acting director of the GAO's International Affairs and 
Trade Team. Prior to this slot, Mr. Bair was assistant director 
in the same office.
    And while Mr. Bair's work is familiar to the subcommittee, 
I am pleased that we now have the opportunity to have him 
testify on his team's work for the first time. I tried to 
convince him that we have a hazing procedure, but he didn't 
fall for it.
    But thank you, Mr. Bair, for being with us. I know that you 
have led multiple teams in evaluating and proving the 
effectiveness of U.S. efforts to fight terrorism abroad. Your 
recent work has taken you to Pakistan, Yemen, the United Arab 
Emirates, Kenya, and elsewhere. Thank you for being here. We 
look forward to hearing your testimony. Congratulations on your 
recent promotion.
    And before we start, I am so pleased to see Mr. Charles 
Johnson in the audience today with his GAO team. Charles is 
very well-known to this subcommittee, and we thank him for all 
of his work over the years. Thank you, Mr. Johnson, for being 
here.
    And with that, Mr. Bair, we will proceed on to your 
testimony. Thank you.

  STATEMENT OF MR. JASON BAIR, ACTING DIRECTOR, INTERNATIONAL 
    AFFAIRS AND TRADE, U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Bair. Thank you. Chairman Ros-Lehtinen, Ranking Member 
Deutch, and other members of the subcommittee, I am pleased to 
be here this morning to discuss GAO's work regarding the State 
Department's Antiterrorism Assistance Program.
    My official statement for the record summarizes the report 
that you have referred to, which we are releasing today, which 
covers three main topics. Number 1, the security of domestic 
training facilities; number 2, human rights vetting and 
terrorist screening; and 3, oversight of ATA participants.
    The main message of our work is that State should improve 
both its data and oversight of ATA participants. However, 
before I focus on those areas for improvement I would like to 
quickly summarize our fundings related to facility security and 
vetting.
    First, with regard to the security of ATA's domestic 
training facilities, we found that following media reports in 
2015 there were allegations of potential vulnerabilities, and 
State Department officials and contractors have taken various 
steps to ensure security, including some after the initiation 
of our review. For instance, consistent with ATF regulations, 
both training facilities maintain locked explosive containers 
and have locked and alarmed armories for storing weapons and 
ammunition.
    Second, with regard to vetting, we found that State 
completed required human rights vetting for ATA participants 
and screens all ATA participants for links to terrorism. 
However, with regard to the third topic of oversight of ATA 
participants, we found weaknesses in two important areas.
    First, ATA has not maintained adequate records of its 
courses and participants. As a result, ATA data are incomplete 
and, unfortunately, sometimes inaccurate. For instance, despite 
reporting having trained about 56,000 participants since 2012, 
ATA was only able to provide records for less than half, or 
about 25,000 participants.
    Such data weaknesses limit ATA's ability to manage the 
program effectively and accurately report on its performance to 
Congress and the American people. We are recommending that 
State improve its collection of data regarding the ATA program, 
and State has agreed to implement changes.
    The second key weakness is related to ATA's oversight of 
participants. Specifically, we found that while ATA does have 
an oversight process in place during training activities, it 
does not confirm that participants return home after the 
completion of their training. With regard to overseeing 
participants during training, we found that 10 participants 
have made unauthorized departures from training, participating 
in the United States since 2012.
    As of September 2017, 2 of the 10 have subsequently 
departed the United States; 6 remain in the United States, 
having applied to DHS for asylum; 1 is believed to be in the 
United States and is the subject of an open DHS investigation 
but is not known to pose a security threat. And as of October 
3, we had not received requested information from DHS regarding 
the tenth individual.
    I do have to note that while the vast majority of ATA 
participants do return home after training is complete, we have 
also learned about 20 individuals trained in the United States 
since 2012 who do not appear to have departed. ATA officials 
and staff at the facilities that we visited described their 
responsibilities for overseeing ATA participant departures, to 
include escorting the ATA participants to the airport, helping 
them check in for their flights, and escorting them to airport 
security.
    Importantly, because ATA lacked a process for confirming 
their return home, State was unaware of these 20 cases until 
after we began our review, some of which are more than 4 years 
old. State has finally notified DHS of these 20 individuals in 
August 2017.
    We have two primary concerns about State's lack of a 
process to confirm that ATA participants returned to their home 
countries. First, ATA may not be able to assess the extent to 
which former participants are using their ATA training. And, 
second, ATA may not be able to provide information to DHS about 
participants whose failure to depart may warrant enforcement 
action.
    Therefore, we are recommending that State implement a 
process to confirm that ATA participants return to their home 
countries. State has agreed to do so by the end of this year 
for ATA participants trained in the United States.
    Chairman Ros-Lehtinen, Ranking Member Deutch, other members 
of the subcommittee, this concludes my prepared statement. I 
would be happy to answer your questions at this time.
    [The prepared statement of Mr. Bair follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Ms. Ros-Lehtinen. Thank you very much. Thank you for the 
work that you and your team provided.
    Thank you, Mr. Johnson, as well, and the entire GAO 
program.
    I wanted to ask you a question regarding one of your 
recommendations that you talked about. You noted that the State 
Department concurred with your recommendation to develop a 
process to confirm the return home of any ATA participant 
trained outside their home country, and State response seems to 
indicate it only intends to implement such a process for those 
trained in the United States and not necessarily for those 
trained in one of the regional facilities or elsewhere outside 
their home country.
    Is that your understanding of how State plans to address 
this issue going forward? And, if so, would you say that it is 
important for State to also develop a similar process for those 
trained overseas?
    Mr. Bair. Thank you for the question and for identifying 
the distinction between those two points. As we talk about in 
the report, certainly from a security perspective, of course we 
want to make sure that anyone who comes to the United States 
for training does depart. However, we think it is also 
important that the State Department make sure that those who 
are trained at regional training facilities return, so that 
they can use the training that we have paid for in order for 
them to be able to enhance the capabilities of the units that 
they return to.
    Based on the comments that State has officially provided in 
our report, which are published in the back, they have clearly 
said that they are going to do the first part of that, but it 
is not clear that they are going to do the second part. We will 
continue to monitor that and follow up with the State 
Department as they implement.
    Ms. Ros-Lehtinen. Thank you. And do let us know your 
progress on that.
    And regarding this inaccurate or incomplete information on 
participant, I think that it is one of the most concerning 
findings for your review. Did you identify the weakness in the 
process design, or was it a management and oversight issue? And 
without complete and accurate information, do you think that it 
would be possible to gauge how effective the ATA program is?
    Mr. Bair. Yes. So let me take both of those questions in 
turn. So on the first issue of kind of, what is the root cause 
of what was going on here, why did we only get about half of 
the participant records that we were looking for, the issue was 
not with a policy. They in fact have a clear policy that 
directs ATA staff to include all participants in that 
participant data system. And so it was really an implementation 
issue.
    So when we probed with State Department officials about 
what exactly was going on there, they pointed to recent staff 
turnover. People weren't fully educated on exactly what they 
were supposed to do. They didn't fully understand the policy, 
and that is something that they have committed to address.
    The second half of your question is also important in terms 
of, how can you assess the effectiveness of the program? That 
is something clearly we want to continue to focus on, and the 
inability to say who it is that you have trained and how they 
have continued to use that capability would undermine their 
ability to give you a good, comprehensive answer.
    Ms. Ros-Lehtinen. Absolutely. And one last question. This 
is regarding State's future plans for the ATA program. State 
has indicated that it wants to move most, if not all, domestic 
training overseas, with Jordan as the most likely destination. 
First, how far along is State in making this shift? As I 
mentioned earlier, State has said it has been planning this 
move for years. Hasn't happened yet.
    And, second, you have a footnote in your report that says 
that ATA officials compared costs and came to the conclusion 
that it would be more cost effective to do this training 
overseas, but that GAO did not evaluate ATA's analysis. Did ATA 
provide you with any details or numbers at all? And tell us 
more about this shift for training overseas.
    Mr. Bair. Yes. So let me first talk about what we know 
about the State Department's progress in implementing this 
shift in the program. I guess I would first start by noting 
about 10 percent over the last several fiscal years of the 
training has occurred domestically, and so that is what was 
really open for being moved to regional training facilities or 
to host partner nations.
    And so that is really what the focus has been, even though 
during the course of our work when we were visiting the 
facilities in Virginia and North Carolina, they were talking to 
us about the fact that they had already seen some of those task 
orders being moved overseas.
    I would also note that State Department has out for 
competition right now a request for proposals for a renewal of 
the global antiterrorism assistance contract, and that I think 
will govern exactly where the State Department goes. With 
regard to the second half of your question about evaluation of 
cost, we did obtain some limited information from the State 
Department about their analysis on cost savings that they might 
realize by moving overseas.
    And it was really just the comparison for one theoretical 
training course and the cost for things like facilities and 
travel, whether that was completed at either the facilities 
here in the United States or in the facility in Jordan. We 
didn't evaluate that, so I can't tell you whether we would say 
that that was a justified response.
    Ms. Ros-Lehtinen. Thank you very much. You are an excellent 
witness, so congratulations.
    Mr. Bair. Thank you.
    Ms. Ros-Lehtinen. Mr. Deutch, I am pleased to recognize you 
now for questions.
    Mr. Deutch. Thank you, Madam Chair. I am going to--I agree 
with the chair. I think you are an excellent witness, and it is 
a fine opportunity to express our appreciation for the 
important work that GAO does. So thanks to all of you.
    Thanks for your testimony and for being here. Can you 
provide us with some examples from your engagements review of 
the ATA program of the most successes of the program? Where 
does it work the best? We are getting into the challenges and 
you addressed some of those, but are there successes you can 
highlight?
    Mr. Bair. Yes, certainly. I think this is one of those 
areas where we want to focus on what works in a program. And I 
would say in addition to GAO's analysis--and I know we have 
already heard about the State Office of Inspector General who 
recently did a review as well. I would note that there have 
been evaluations, independent evaluations, by the 
Counterterrorism Bureau that have looked at the program a 
little more holistically and in countries.
    And in some of the countries that they have looked at, 
including Morocco as well as Bangladesh, they really cite the 
growth of the bilateral relationship on a law enforcement level 
in those countries, helping grow not only their 
counterterrorism capability but also their willingness to 
participate in joint investigations and things like that, which 
clearly provide benefits to the United States.
    Mr. Deutch. And if--so shifting, then, if GAO reviews 
consistently find problems at the State Department with 
oversight and management, why aren't we seeing greater 
improvements? You talked about the recent staff turnover as 
being one of the problems here. Do we need to do a better job 
hiring career program managers instead of foreign services 
officers at posts to manage programs like this? Would that help 
address some of these problems? And if we did that, what would 
that look like?
    Mr. Bair. So I would say we don't specifically address that 
question of career versus foreign service officers in this 
report. I guess this is, again, just to be clear, a program 
which is overseen by the Counterterrorism Bureau, the Bureau of 
Counterterrorism and Countering Violent Extremism that provides 
policy direction and oversight. But it is really implemented by 
the Bureau of Diplomatic Security, especially their regional 
security officers in the host countries.
    We all are well acquainted with the challenges that--the 
security challenges that we face at our Embassies and 
consulates abroad. This is an additional duty that is upon 
them. And as we have highlighted in a recent report looking at 
overall diplomatic security key issues, we have, in September 
of this year, put out a report that covers some of those key 
issues for oversight, which make it clear the Bureau of 
Diplomatic Security has a broad and deep set of 
responsibilities, and this is, admittedly, one of the 
responsibilities that doesn't make the press as much but 
certainly is very important that they need to continue to focus 
on.
    Mr. Deutch. Right. As you highlight in your report and here 
today. And, finally, are there other State Department security 
assistance programs that can serve as a model for improved 
monitoring and evaluation of the ATA program? Specifically, 
thinking about the difficulties in Pakistan.
    Mr. Bair. So I would say, I wouldn't point to any specific 
program that I would say is doing a great job in monitoring and 
evaluation. I would, though, to be fair to the State 
Department, give them credit. They have a clear and explicit 
policy for monitoring and evaluation. And as I talked about in 
my statement and in response to earlier questions, they are 
doing some evaluations. They are doing some of those deeper 
dives.
    I think some of the issues that the State OIG and we have 
identified over time really fall into that monitoring bucket. 
And that for us is more focused on managing the day-to-day 
operation of the program as opposed to taking that step back 
every few years and saying, how well are we doing at achieving 
our goals? And so I think that monitoring piece is where we 
want to focus on, and we want to see them continue to put their 
time and effort.
    Mr. Deutch. Terrific. This is very helpful, and we 
appreciate it. Thank you, Mr. Bair.
    I yield back.
    Ms. Ros-Lehtinen. Thank you very much, Mr. Deutch.
    I am so pleased to recognize Mr. Mast, another great 
Floridian in our subcommittee, for his questions.
    Mr. Mast. Thank you, Chairman. Thank you very much.
    I appreciate your time. I just have one specific line of 
questioning, and it falls in line with this as we layer down 
the conversation. You know, you can always talk about what is 
possible out there in the world, and that can be an important 
conversation. I try to spend more time on what is probable, 
because I think that does often get us a little bit closer to 
what the real threats are.
    So from you, I just want to simply know, gauge your 
assessment of an insider threat and our capability of 
combatting insider threats. What is your take on the true 
probability of nefarious inside activities and our ability to 
go out there and combat those activities? What is your 
assessment of that?
    Mr. Bair. So with regard to the Antiterrorism Assistance 
Program that we focus on in this report, I would highlight the 
work that we did confirming the State Department's vetting, not 
only for gross violations of human rights as well as for 
terrorist screening. I can't get into all of the details of all 
of the systems that they might check for terrorist screening, 
but I will say----
    Mr. Mast. Then they would know what we do.
    Mr. Bair. Correct.
    Mr. Mast. Exactly. Please continue.
    Mr. Bair. Yes. So what we did is we confirmed that in fact 
the State Department ATA program was doing all of the vetting 
that was required of them. Under the State Department Leahy 
Law, we are able to look at a generalizable random sample and 
confirm that every one of the individuals for whom we were able 
to get data was vetted as required.
    In terms of the terrorist screening, we also confirmed that 
in the first instance every ATA participant is subject to 
terrorist screening. And then, second, for those individuals 
who are brought to the United States for training, obviously 
they need to get visas to come to the United States, and there 
is that additional layer of security.
    And so I would say we did find a number of screens in place 
to ensure that State Department is doing everything that they 
can. Having said that, there is no system which is going to be 
perfect. And they do, though, I think have a reasonable 
assurance that they are taking the steps that they need to.
    Mr. Mast. Exactly right. No system is going to be perfect. 
When you are combatting threats like this, you are combatting 
the imagination of somebody else. It is a game of cat and 
mouse. It is never easy to do, and so that is where I am really 
just looking for your opinion on, if you were given carte 
blanche, is it where you would want it to be at, or would you 
see drastic changes?
    Mr. Bair. So it is not--unfortunately, it is not something 
we specifically addressed in the report. But I would say, 
again, the State Department was able to satisfy us that they 
were taking the steps that they need to and there is not 
tremendous concern about insider threats with this program, 
because one of the things that they pointed out to us is that 
the people trained in the program are foreign law enforcement 
officials whose charge is to combat terrorism in their home 
country.
    And while, again, that doesn't provide perfect assurance, 
these are people that we are partnering with on a day-to-day 
basis to try to combat--to combat terrorism in those countries.
    Mr. Mast. Certainly. And I have worked with law enforcement 
in Afghanistan, and not always a group that, you know, in some 
cases it was successful work, and in many cases it was not a 
group that I wanted to necessarily turn my back on. And, you 
know, that is the reality of the situation. It is very 
difficult for you to deal with as well, and I appreciate your 
comments. Thank you.
    Mr. Bair. Thank you.
    Ms. Ros-Lehtinen. Thank you, Mr. Mast, very much.
    Now we turn to Mr. Schneider. Thank you.
    Mr. Schneider. Thank you. And, again, thank you for having 
this hearing.
    Mr. Bair, thank you so much for being here and sharing your 
report. A number of questions, and I think you have touched on 
these but I am going to ask them again. Would you say you are 
satisfied that the security issues identified leading up to the 
report have been addressed by the Department of State and the 
ATA program?
    Mr. Bair. Yes. I would say what we have done is we looked 
at the foundation for what are the security requirements. 
Again, as we were having the conversation about before, that is 
fundamentally what is in the contract that the State Department 
has signed with the facilities.
    Admittedly, those requirements are relatively general, but 
they do include things like having the appropriate licenses in 
place, whether they be from the ATF or from state or local 
officials, and that covers everything from controlling 
explosives, guarding ammunition, things like that. As well we 
observed not only during our site and surveillance visits that 
they have made some additional changes in terms of improving 
perimeter security, building additional fences, gates, things 
like that. We saw evidence that all of those things had taken 
place.
    Mr. Schneider. Great. Now, security is not static. It is a 
dynamic, constant-changing challenge. Are you comfortable--to 
what extent and what reasons would you say you are comfortable 
that ATA and our contractors are committed to constantly 
reviewing and making the necessary changes to ensure security 
is up to the level we expect?
    Mr. Bair. Yes. So I would say in our conversations with 
both the State Department officials overseeing the program on a 
day-to-day basis, as well as the contractors that we visited in 
both Virginia and North Carolina, that we are certainly 
committed to that.
    Having said that, as you acknowledge, we looked at this in 
a point in time, and there is going to be need for continued 
vigilance to make sure that, you know, any new security threats 
would be addressed. Having said that, though, certainly the 
media reports did focus everyone's attention not only at the 
State Department but on the part of the facilities on the need 
to make sure that strong security measures were in place.
    Mr. Schneider. Great. Shifting gears a little bit here, 
whose responsibility is it to oversee the effectiveness, but 
also the return on investment of the ATA program, that we are 
actually getting a return on the monies we are investing in 
these programs?
    Mr. Bair. So, again, as I talked about before, the program 
has a unique structure in that the Bureau of Counterterrorism 
and Countering Violent Extremism is responsible for policy and 
oversight, and they do some of that oversight evaluation piece 
that we were talking about before, and the Bureau of Diplomatic 
Security really does the implementation.
    So I would say this is really a Bureau of Counterterrorism 
and Countering Violent Extremism that has that oversight piece.
    Mr. Schneider. So, but there is--what I am hearing is kind 
of a split between responsibility and authority for the 
program. And in that dynamic, who ultimately ends up being 
accountable for its effectiveness and making sure we get the 
return on the monies we are spending?
    Mr. Bair. So I would still say that it is the Bureau of 
Counterterrorism and Countering Violent Extremism. And I will 
say, over the course of our job--and we did a similar report 
back in 2008 where we identified some challenges for the 
coordination between those two bureaus and made 
recommendations, which the bureaus have implemented to kind of 
solidify and clarify their relationship and what the 
responsibilities were for the Bureau. So that is an area where 
we have seen improvement, but we think certainly continued 
oversight will help that.
    Mr. Schneider. And the last question, as we run out of 
time, looking forward, you mentioned a report in 2008. We have 
a report now in 2017. Is the frequency of review sufficient to 
address the challenges, or is this something that we should be 
working to review on a more frequent basis?
    Mr. Bair. So I will say we at GAO are always happy to do 
work for the subcommittee, if you have a continuing interest. I 
would add, back to my remarks before, there have been other 
evaluations, both State Department OIG completed a report 
earlier this summer, but they looked at specifically the 
program in Pakistan, and I think they may have other work 
ongoing, as well as the independent evaluations that have been 
contracted for by the Bureau of Counterterrorism.
    There is an ongoing level of oversight. But having said 
that, certainly this committee's interest in the issue does 
focus the Department's perspective and attention to making sure 
that the program is running as effectively and efficiently as 
possible.
    Mr. Schneider. Great. Thank you again, and I appreciate you 
sharing your perspective and your candor. Thank you very much.
    I yield back.
    Mr. Bair. Thank you.
    Ms. Ros-Lehtinen. Thank you, Mr. Schneider.
    And now we are so pleased to hear from Mr. Connolly of 
Virginia.
    Mr. Connolly. Thank you, Madam Chairman, and I am not sure 
you know that I spent 10 years----
    Ms. Ros-Lehtinen. I had heard something about----
    Mr. Connolly [continuing]. On the Senate Foreign Relations 
Committee. Yes.
    All right. Welcome, Mr. Bair. The--no, let me say, the 
original report of GAO had I think 22 recommendations?
    Mr. Bair. So if you are referring to the draft report that 
we submitted to the agencies for review, it had three 
recommendations in it, and our final one has two.
    Mr. Connolly. No, that is not what I am referring to.
    Mr. Bair. Okay. I am sorry.
    Mr. Connolly. Mr. Engel and I wrote a letter in November 
asking the State Department to implement all of your 
recommendations, and that was at the time 22. Seven reqs were 
resolved, 15 remained unresolved, and then you added 2 in the 
latest report, meaning there are 17 unresolved recommendations 
or partially resolved.
    Mr. Bair. I think you may be referring to broadly our 
recommendations overall to the State Department.
    Mr. Connolly. Right.
    Mr. Bair. What we have started as a process for----
    Mr. Connolly. Well, is it overall State Department, or is 
it Diplomatic Security Bureau?
    Mr. Bair. So we have--overall State Department. However, 
the vast majority of the recommendations that we have 
identified as priorities for the State Department to implement 
do relate to the Bureau of Diplomatic Security.
    Mr. Connolly. Yes.
    Mr. Bair. And I apologize, my----
    Mr. Connolly. No, that is all right.
    Mr. Bair. It was about our report here.
    Mr. Connolly. Right. Right. We are looking at the whole 
thing and trying to actually get them to comply. Is it your 
sense that you are getting cooperation?
    Mr. Bair. I would say that the State Department has 
certainly become more focused on implementing the 
recommendations. Historically, I think their implementation 
rate of GAO recommendations is slightly under about 80 percent.
    We want to--we would love for that to be 100 percent, but I 
think they are increasingly focusing on making sure that they 
are providing us timely information in response to our 
information request, so that we can confirm that they have in 
fact taken the steps that we have recommended.
    Mr. Connolly. We had a hearing last week on the State 
Department reorganization. How is that reorganization affecting 
your recommendations and the work you have done in this sphere?
    Mr. Bair. So I don't know that I have a broad answer for 
you with regard to the work that we are doing----
    Mr. Connolly. Narrow is fine.
    Mr. Bair [continuing]. On a day-to-day basis. So what we 
have--what I can speak to specifically on this report regarding 
the Antiterrorism Assistance Program is we are not aware of any 
organizational changes, either in the pipeline or being 
considered, with regard to this specific program. It certainly 
is something that, you know, we want to continue to focus on to 
provide you all the information that you need as you continue 
to do oversight.
    Mr. Connolly. Well, may I be so bold as to recommend that 
GAO might want to pay attention to it, because we are not 
talking about trivial cuts. If they go forward with the Trump 
recommendation, you are talking about a 32-percent cut to the 
State Department NAID. That undoubtedly would affect this 
Bureau and the personnel necessary to carry out your 
recommendations and to make sure there is decent evaluation and 
oversight. So I really think it is very relevant to the subject 
at hand, and I strongly urge you to look at it.
    What is your--I was a little puzzled by the discussion 
about people not being properly monitored as they completed the 
program and were supposed to leave the country. Is there 
evidence that people who were in the program have stayed 
illegally in the United States?
    Mr. Bair. Yes. So let me clarify a little bit.
    Mr. Connolly. Yes.
    Mr. Bair. So, really, what we are talking about probably is 
the 20 individuals--the group of 20 individuals that we 
identified. All of those individuals did in fact complete their 
ATA training domestically between 2012 and 2016. State 
Department's policy is to escort them to the airport and to 
airport security.
    Mr. Connolly. No, I got all of that. What is your concern?
    Mr. Bair. Our concern is twofold. First and foremost, if 
those people haven't left the country, there is a concern about 
what they are doing here.
    Mr. Connolly. No, no. Mr. Bair, unfortunately, I have 1 
minute and 14 seconds left. That is why I am interrupting you. 
Forgive me. Is there evidence that any of those 20 stayed here 
illegally?
    Mr. Bair. Nineteen of the 20 individuals, according to DHS 
records, are likely still in the United Sates.
    Mr. Connolly. Ah. Okay. And so we have reason to be 
concerned.
    Mr. Bair. They have not fulfilled the responsibilities as 
when they came in and were admitted to the United States.
    Mr. Connolly. Got it. And final question, there has been--
OIG did a report on ATA in Pakistan.
    Mr. Bair. Right.
    Mr. Connolly. What are the concerns with the program in 
Pakistan?
    Mr. Bair. So, again, that is a very country-specific focus.
    Mr. Connolly. I know, but it is----
    Mr. Bair. I was talking about monitoring of the program and 
some of the contract elements of that as it related to Pakistan 
were really the key focus there. There was also some equipment 
that hadn't been used that had been sitting there for a long 
time because training wasn't occurring, and that is something 
that the IG pointed out that was potentially an opportunity for 
efficiency. That equipment could be taken to other places.
    Mr. Connolly. Okay. All right. Well, thank you very much.
    Thank you, Madam Chairman.
    Ms. Ros-Lehtinen. Thank you, Mr. Connolly.
    And Mr. Meadows of North Carolina is recognized.
    Mr. Meadows. Thank you, Madam Chairman.
    Mr. Bair, so let me follow up where Mr. Connolly left off 
because funding always becomes an issue, and actually it is a 
discussion we had last night as it related to making sure that 
there is proper funding.
    And yet I guess the GAO continues to find that there is 
either expired or unobligated funds in this particular program. 
I guess my question to you is, why? I have never found a 
Federal agency that can't spend the money other than perhaps 
now we have found one. So why is that?
    Mr. Bair. Yes. So, first and foremost, State Department 
should have an excellent answer for that question. I can relay 
to you the answer that we got from them as we probed the----
    Mr. Meadows. So I take it from your comment that it wasn't 
an excellent answer.
    Mr. Bair. I will let you be the judge of whether it is an 
excellent answer or not. I can tell you what they told us. 
First and foremost----
    Mr. Connolly. It might be a Garrison Keillor pretty good 
answer. [Laughter.]
    Mr. Bair. So first and foremost, the vast majority of the 
funds that were unobligated were fiscal year 2016 funds. The 
way the appropriations are----
    Mr. Meadows. Yes. But prior year's, they expire.
    Mr. Bair. Correct. So the expiration of funds is something 
that we don't want to occur. We want to focus on getting them 
to spend those funds within the time periods that they are 
allotted.
    Mr. Meadows. So why are they not?
    Mr. Bair. So the explanation largely hinged on changes in 
the program as it evolved over time. So let's say a training 
event is scheduled in Pakistan. If it is near the end of the 
fiscal year, and let's say the trainers can't get a visa to 
travel, it would have to be bumped to the next fiscal year. And 
if it didn't occur in the fiscal year that it needed to, those 
funds wouldn't have been used in time.
    Mr. Meadows. All right. Well, so I could buy that with 2016 
unobligated funds, but, as I mentioned, 2015 funds expired. Is 
this not a historical problem with this program?
    Mr. Bair. This is something that we certainly have had 
concerns about over time, and have provided----
    Mr. Meadows. So their answer does not bear out in terms of 
what we know historically has happened on this program. So 
should we do away with the program, Mr. Bair?
    Mr. Bair. So we don't make a judgment about whether the 
program should continue.
    Mr. Meadows. I do. But go ahead. What is your opinion? I am 
asking you your opinion.
    Mr. Bair. So it is complicated, as the chair talked about 
before. There are aspects of the program that are working very 
effectively, and there are many tens of thousands of officials 
that have been trained, but we think the program, if it 
continues, needs to be operated more effectively from a program 
management----
    Mr. Meadows. So where does the buck stop? Where at State 
does it stop? Who are the people that we ought to have there in 
the hot seat instead of you to get better answers where Madam 
Chairman can drill down and make sure that we are effective and 
efficient with taxpayer dollars?
    Mr. Bair. Yes. So the Bureau of Counterterrorism and 
Countering Violent Extremism provides policy oversight and 
guidance, and the Bureau of Diplomatic Security actually 
implements the program on the ground.
    Mr. Meadows. So both of them is what you are saying?
    Mr. Bair. Both of them are----
    Mr. Meadows. Who are in those positions right now?
    Mr. Bair. I am not familiar with exactly who is in those 
positions. As we have talked about, there is a lot of changes 
going on at the State Department.
    Mr. Meadows. So if you don't know who the--who would know?
    Mr. Bair. The State Department should be able to give you 
an answer to who is acting in the relevant----
    Mr. Meadows. I guess who are you talking to at State--I 
mean, obviously, you are not talking to a fictitious person. 
Who is your contact at State?
    Mr. Bair. Yes. So I am certainly happy to come and brief 
you and your staff on the specific individuals that we met 
with. They were largely program-level officials. I think the 
answers that you are more interested in are----
    Mr. Meadows. Okay. Here is what I would ask you get back to 
the chairman on, is we need to know the two individuals 
responsible for this particular issue at State, get that back 
to this subcommittee and the chairman, and then if you will let 
them know and take back that we are very concerned with the 
inefficient use of taxpayer dollars on a critical mission, and 
if it is not clear enough, if you will get back to me 
personally, I will be glad to make a personal phone call. Would 
you do that, Mr. Bair?
    Mr. Bair. I am happy to carry that back, yes.
    Mr. Meadows. All right. Thank you.
    I will yield back.
    Mr. Deutch. Would the gentleman yield for a second?
    Mr. Meadows. Sure.
    Mr. Deutch. I would ask Mr. Bair if, given the role that 
diplomatic security plays here, does it make a difference, 
should it make a difference, that the Assistant Secretary of 
State for Diplomatic Security is currently--that position is 
currently vacant, and the Principal Deputy Assistant Secretary 
for Diplomatic Security, and the Director of the Diplomatic 
Security Service, that that is also a vacant position?
    Mr. Bair. It may make a difference insofar as policy 
decisions and who is empowered to make those decisions.
    Mr. Deutch. Okay. Because I would--perhaps my friend might 
join me in urging that we move forward as quickly as possible 
to fill those positions in this vitally critical area, which--
--
    Mr. Meadows. I will make----
    Mr. Deutch [continuing]. Are highlighted by----
    Mr. Meadows [continuing]. A bipartisan agreement here. I 
will make sure the administration acts quickly on those 
appointments, if you make sure your Senate colleagues in the 
upper chamber will confirm and due diligence. I yield back.
    Mr. Deutch. I look forward to working with my friend on 
that. Thank you.
    Ms. Ros-Lehtinen. Thank you to--and who knows? There might 
be more vacancies at the top or topper levels of State today. 
Who knows? What is happening?
    Thank you so much, Mr. Bair. Thank you to the excellent 
team at GAO. We appreciate everything that you have done. We 
will follow up with the request of Mr. Meadows--excellent 
request--and Mr. Deutch, and we will attempt to get those 
answers, as soon as we get those folks there. Thank you.
    With that, our subcommittee is adjourned. Muchas gracias.
    [Whereupon, at 10:49 a.m., the subcommittee was adjourned.]

                                     
                                    

                            A P P E N D I X

                              ----------                              
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
                                 
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
